         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       Assistance Agreement and
       Contract Recipients with
       Open Audit Recommendations
       May Affect Recovery Act Activities
       Report No. 09-X-0196

       July 14, 2009
Report Contributors:                          Janet Kasper
                                              Matthew Simber
                                              Leah Nikaidoh
                                              Michael Petscavage
                                              Nancy Dao
                                              Lisa McCowan
                                              Wendy Swan




Abbreviations

CFR          Code of Federal Regulations
DCAA         Defense Contract Audit Agency
EPA          U.S. Environmental Protection Agency
FAOSC        Financial Analysis and Oversight Service Center
FY           Fiscal Year
GIAMD        Grants and Interagency Agreements Management Division
OAM          Office of Acquisition Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
                       U.S. Environmental Protection Agency                                               09-X-0196
                                                                                                       July 14, 2009
                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review           Assistance Agreement and Contract
We reviewed open                 Recipients with Open Audit Recommendations
recommendations from prior
Office of Inspector General      May Affect Recovery Act Activities
(OIG) audit reports that
focused on assistance             What We Found
agreement and contract
recipients that could impact     As of June 30, 2009, EPA used Recovery Act funding to award one assistance
the U.S. Environmental           agreement and one contract to recipients with open recommendations.
Protection Agency’s (EPA’s)
                                 Providing funding to recipients with known weaknesses and open
American Recovery and
Reinvestment Act (Recovery       recommendations increases the risks of fraud, waste, abuse, and mismanagement
Act) activities. Recent Office   of Recovery Act funds.
of Management and Budget
guidance requires the            We reviewed open audit reports for four audit areas for which the findings and
expediting of actions on open    recommendations primarily addressed questioned costs and internal control
recommendations to preclude      weaknesses:
continuing weaknesses or
deficiencies that can impact         •   Financial audits of assistance agreement recipients (9 reports)
Recovery Act funding.
                                     •   Forensic audits of assistance agreement and contract recipients (4 reports)
                                     •   Single audits (27 reports)
Background
                                     •   Defense Contract Audit Agency audits (27 reports)
Open recommendations are
those for which EPA or the       In addition to the two recipients already receiving Recovery Act funding, at least
recipient of an EPA assistance   a portion of the remainder may also receive such funds through assistance
agreement or contract has not    agreements and contracts. EPA should consider known concerns, including open
completed corrective actions.    recommendations, when making future awards.
As of June 30, 2009,
67 reports had open
recommendations that could        What We Recommend
impact EPA’s Recovery Act
activities.                      We recommend that EPA verify whether assistance agreement and contract
                                 recipients have corrected weaknesses identified in OIG reports prior to awarding
                                 new funds, and expedite corrective action for open recommendations pertaining
For further information,         to Recovery Act funding recipients.
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090714-09-X-0196.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460

                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




                                            July 14, 2009

MEMORANDUM

SUBJECT:       Assistance Agreement and Contract Recipients with Open Audit
               Recommendations May Affect Recovery Act Activities
               Report No. 09-X-0196


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:            Craig Hooks, Acting Assistant Administrator
               Office of Administration and Resources Management


The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA) has
completed a review of open recommendations from prior financial audit reports that could
impact EPA’s American Recovery and Reinvestment Act (Recovery Act) activities. 1 This
review was not an audit conducted in accordance with Government Auditing Standards.

We reviewed and included in this special report all EPA OIG reports with open
recommendations as of June 30, 2009. Open recommendations are those for which EPA or the
recipient of an EPA assistance agreement or contract has not completed corrective action. In
accordance with Executive Office of the President, Office of Management and Budget (OMB)
Recovery Act Implementation Guidance, dated April 3, 2009, if final action on report
recommendations has not been taken, EPA should (1) expedite such action to preclude the
continuance of weaknesses or deficiencies in the administration of Recovery Act-funded
programs, or (2) provide an explanation of why such corrective actions cannot or should not be
taken in the administration of Recovery Act-funded programs. The OMB guidance instructs
OIGs to determine whether safeguards exist to ensure recipients and sub-recipients use funds for
their intended purposes.2


1
  A report on open recommendations from performance audit reports, Open Audit Recommendations Affecting
Recovery Act Activities (Report No. 09-X-0136), was issued on April 9, 2009.
2
  OMB Memorandum M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act
of 2009.


                                                   1
                                                                                        09-X-0196


This special report identifies open recommendations from 67 OIG audit reports in four different
audit areas that could impact EPA’s Recovery Act activities because the findings and
recommendations addressed questioned costs and internal control weaknesses:

      •   Financial audits of assistance agreement recipients (9 reports)
      •   Forensic audits of assistance agreement and contract recipients (4 reports)
      •   Single audits (27 reports)
      •   Defense Contract Audit Agency reviews (27 reports)

A quick reference table listing all 67 reports is included as Attachment 1. Attachment 2 contains
details on each of the reports based on audit area.

While not all the organizations in the 67 reports with open recommendations will receive
Recovery Act funds, EPA continues to make assistance agreement and contract award decisions.
These open recommendations demonstrate instances where recipient internal controls did not
safeguard federal funds or follow federal regulations. EPA must ensure that recipients are able
to effectively administer and manage Recovery Act-funded projects. Assistance agreement and
contract recipients with internal control weaknesses may unknowingly or knowingly violate
federal regulations. One of the crucial accountability objectives listed in the OMB guidance is to
ensure “funds are used for authorized purposes and potential for fraud, waste, error, and abuse
are mitigated.” If EPA provides funding to recipients that have not implemented the identified
corrective actions, the Agency increases the risks of fraud, waste, abuse, and mismanagement of
Recovery Act funds.

On March 9, 2009, EPA issued its Initial Recovery Act Grant Award Guidance. This Guidance
directed EPA Program and Grants Management Offices to resolve OIG audit, single audit, or
EPA review open findings for Recovery Act funding applicants prior to award. When the open
recommendations cannot be resolved prior to award and the finding does not call into question
the recipient’s ability to manage Recovery Act funds, the Office may proceed with the award.
The award must contain a special term and condition requiring the recipient to take necessary
corrective actions within a specified period. EPA made a Recovery Act Clean Water State
Revolving Fund award to the State of New York and did not include the required special term
and condition. The OIG recognizes that EPA included resolving open recommendations from
prior reviews in its Recovery Act assistance award process. However, for Recovery Act grant
recipients, we are recommending the Regional Senior Resource Official to verify that assistance
agreement recipients have corrected weaknesses or have a plan to timely correct weaknesses
identified in OIG, single audit, or EPA reviews prior to awarding funds and document the
verification in the assistance agreement file. EPA’s Office of Acquisition Management (OAM)
also issued guidance; however, it did not address reviewing audit reports with open findings
pertaining to contractors that may receive Recovery Act funds.




                                                2
                                                                                                    09-X-0196


As of June 30, 2009, EPA had awarded Recovery Act funding to 2 of the 67 recipients with open
recommendations (see Table 1).

Table 1: Recipients of Recovery Act Funds with Open Recommendations
 Action Official          Recipient              Report No.   Recovery Act Program
 Region 2                 New York, State of     2007-3-00139 Clean Water State Revolving Fund
 OAM                      Contractor             08-4-0207    Superfund
Source: OIG analysis

We are making several recommendations to the Office of Administration and Resources
Management, which oversees the administration of assistance agreements and contracts, to
ensure that open recommendations are appropriately addressed in relation to Recovery Act funds.
We will monitor EPA’s implementing of this report’s recommendations as part of our ongoing
Recovery Act work.

Recommendations

We recommend that the Assistant Administrator for Administration and Resources Management:

    1. Require Regional Senior Resource Officials; Director, Grants and Interagency
       Agreements Management Division; and/or OAM Procurement Operation Division
       Directors to verify that assistance agreement and contract recipients have corrected
       weaknesses or have a plan to timely correct weaknesses identified in OIG reports prior to
       awarding funds, and document these actions in the assistance agreement or contract file.

    2. For Defense Contract Audit Agency audit reports received by OAM since January 1,
       2009, verify that contract recipients have corrected weaknesses or plan to timely correct
       weaknesses identified in these reports prior to awarding funds.3 Document this review in
       the contract file. Implement the actions identified in Recommendation 3 for the
       contractor that received Recovery Act funding.

We recommend that the Assistant Administrator for Administration and Resources Management
and the Regional Administrator, Region 2:

    3. Expedite
    4. corrective actions to address open recommendations for recipients that have received
       Recovery Act funding. Review assistance agreement and contract terms and conditions
       and amend them, as necessary, to adequately protect the government’s interests.
       Document these actions in the assistance agreement or contract file, along with the
       approval of the actions by the Regional Senior Resource Official and the OAM
       Procurement Operation Division Director.




3
 As of January 1, 2009, EPA began administering the interagency agreement with the Defense Contract Audit
Agency.


                                                      3
                                                                                        09-X-0196




Action Required

Please provide a response within 30 days describing the actions EPA is taking, or has taken, to
address these recommendations. Specifically, we ask you to describe what EPA is doing to
address the open recommendations pertaining to the two Recovery Act fund recipients.

If you or your staff has any questions regarding this report, please contact me at
(202) 566-0899 or heist.melissa@epa.gov; or Janet Kasper, Director for Contracts and
Assistance Agreement Audits, at (312) 886-3059 or kasper.janet@epa.gov.




                                                4
                                                                                                                                       09-X-0196



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1       Action Official          Date      Amount      Amount

     1        3     Require Regional Senior Resource Officials;               O       Assistant Administrator
                    Director, Grants and Interagency Agreements                        for Administration and
                    Management Division; and/or OAM Procurement                       Resources Management
                    Operation Division Directors to verify that
                    assistance agreement and contract recipients have
                    corrected weaknesses or have a plan to timely
                    correct weaknesses identified in OIG reports prior
                    to awarding funds, and document these actions in
                    the assistance agreement or contract file.

     2        3     For Defense Contract Audit Agency audit reports           O       Assistant Administrator
                    received by OAM since January 1, 2009, verify that                 for Administration and
                    contract recipients have corrected weaknesses or                  Resources Management
                    plan to timely correct weaknesses identified in
                    these reports prior to awarding funds. Document
                    this review in the contract file. Implement the
                    actions identified in Recommendation 3 for the
                    contractor that received Recovery Act funding.

     3        3     Expedite corrective actions to address open               O       Assistant Administrator
                    recommendations for recipients that have received                  for Administration and
                    Recovery Act funding. Review assistance                           Resources Management
                    agreement and contract terms and conditions and                             and
                    amend them, as necessary, to adequately protect                   Regional Administrator,
                    the government’s interests. Document these                               Region 2
                    actions in the assistance agreement or contract file,
                    along with the approval of the actions by the
                    Regional Senior Resource Official and the OAM
                    Procurement Operation Division Director.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  5
                                                                                         09-X-0196


                                                                                   Attachment 1

              Quick Reference Table for OIG Reports
            with Open Findings and Recommendations
We have developed the following reference table of reports with open recommendations, listing
the EPA action official and the page number on which the report description is located. The
table lists reports open as of June 30, 2009. The Grants and Interagency Agreements
Management Division (GIAMD) and the Office of Acquisition Management/Financial Analysis
and Oversight Service Center (OAM/FAOSC) both are within EPA’s Office of Administration
and Resources Management. The recipients with open recommendations that have already
received Recovery Act funds are highlighted in yellow.

Table 1-1: OIG Report Quick Reference Table
    Action       OIG Report       Report
   Official       Number           Date                          Report Title                   Page
 GIAMD          2002-2-00008    01/29/2002    Procurement Practices Under Grant No.              14
                                              X825532-01 Awarded to MBI International
 GIAMD          2003-S-00001    05/29/2002    EPA Cooperative Agreements Awarded to the          13
                                              Coordinating Committee for Automotive Repair
                                              (Region 7 Proactive)
 GIAMD          2003-4-00120    09/30/2003    Geothermal Heat Pump Consortium, Inc., Costs       12
                                              Claimed Under EPA Assistance Agreement
                                              Nos. X828299-01 and X828802-01
 GIAMD          2005-3-00036    12/30/2004    National Indian Health Board, Fiscal Year (FY)     17
                                              2002
 GIAMD          2006-3-00006    10/13/2005    Alfred University, FY 2004                         17
 GIAMD          2007-3-00037    12/11/2006    Alfred University, FY 2005                         19
 GIAMD          2006-4-00122    07/31/2006    Association of State and Interstate Water          11
                                              Pollution Control Administrators Incurred Costs
                                              for Seven EPA Assistance Agreements
 GIAMD          2006-3-00199    09/07/2006    Howard University, FY 2005                         18
 GIAMD          2007-4-00026    11/28/2006    International City/County Management               11
                                              Association Reported Outlays Under Seven
                                              Selected Cooperative Agreements
 GIAMD          2007-4-00027    11/30/2006    Examination of Financial Management Practices      10
                                              of National Rural Water Association, Duncan,
                                              Oklahoma
 GIAMD            08-1-0277     09/25/2008    National Caucus and Center on Black Aged,          9
                                              Inc., Incurred Cost Audit of Eight EPA
                                              Cooperative Agreements
 GIAMD            09-3-0038     11/21/2008    Water Environment Federation, FY 2006              22
 GIAMD            09-3-0073     01/06/2009    Environmental Council of the States and            23
                                              Affiliates, FY 2006
 GIAMD            09-3-0062     01/07/2009    Missouri, University of, FY 2006                   23
 Region 1       2006-3-00203    09/18/2006    Indian Township Tribal Government, FY 2002         18
 Region 1       2006-3-00204    09/18/2006    Indian Township Tribal Government, FY 2003         18
 Region 1       2006-3-00205    09/19/2006    Indian Township Tribal Government, FY 2004         19
 Region 1        08-3-0250      09/05/2008    Indian Township Tribal Government, FY 2006         20
 Region 1        09-3-0024      11/12/2008    Indian Township Tribal Government, FY 2007         22
 Region 2       2007-3-00139    07/26/2007    New York, State of, FY 2006                        20


                                                6
                                                                                    09-X-0196


  Action     OIG Report       Report
  Official    Number           Date                          Report Title                Page
Region 2     09-3-0050      12/08/2008   St. Regis Mohawk Tribe, FY 2007                  22
Region 2     09-3-0063      12/18/2008   Cayuga County Soil and Conservation District,    23
                                         FY 2006
Region 3      08-4-0156     05/19/2008   Canaan Valley Institute, Inc., Incurred Cost     9
                                         Audit of Five EPA Cooperative Agreements
Region 3      09-3-0126     03/23/2009   Alliance for the Chesapeake Bay, FY 2007         26
Region 3      09-4-0135     04/03/2009   Contractor                                       15
Region 5      09-4-0112     03/09/2009   ML Wastewater Management, Inc. –                 15
                                         Procurement, Financial Management, and
                                         Lobbying Issues Under EPA Grant Number
                                         XP97572201
Region 5      09-4-0133     04/03/2009   Contractor                                       16
Region 6      09-3-0093     02/11/2009   Seminole Nation of Oklahoma, FY 2006             24
Region 6      09-3-0108     03/03/2009   Seminole Nation of Oklahoma, FY 2007             26
Region 8     2007-4-00078   09/24/2007   Cheyenne River Sioux Tribe Outlays Reported      10
                                         Under Five EPA Assistance Agreements
Region 8      08-3-0247     09/04/2008   North Dakota, State of, FY 2006                  20
Region 8      08-3-0307     09/30/2008   Oglala Sioux Tribe, FY 2004                      21
Region 8      09-3-0102     02/24/2009   Northern Cheyenne Tribe, FY 2006                 25
Region 8      09-3-0103     02/25/2009   The City of Hill City, FY 2006                   25
Region 8      09-3-0140     04/20/2009   Anaconda-Deer Lodge County, FY 2007              26
Region 9      09-3-0075     01/08/2009   Lone Pine Paiute-Shoshone Reservation,           24
                                         FY 2006
Region 9      09-3-0077     01/08/2009   La Jolla Band of Luiseno Indians, FY 2006        24
Region10      09-3-0104     02/25/2009   Snoqualmie Tribe, FY 2006                        25
Region10      09-3-0109     03/03/2009   Nooksack Indian Tribe, FY 2006                   26
Region10      09-2-0078     01/12/2009   Costs Claimed under EPA Grant XP98011401         15
                                         Awarded to the City of Rupert, Idaho
OAM/FAOSC     08-1-0130     04/15/2008   Contractor                                       31
OAM/FAOSC    2007-1-00090   08/29/2007   Contractor                                       30
OAM/FAOSC     08-1-0131     04/15/2008   Contractor                                       30
OAM/FAOSC    2004-1-00099   09/14/2005   Contractor                                       28
OAM/FAOSC    2007-1-00016   11/13/2006   Contractor                                       29
OAM/FAOSC    2007-1-00097   09/20/2007   Contractor                                       30
OAM/FAOSC     08-1-0114     03/24/2008   Contractor                                       31
OAM/FAOSC    2007-4-00038   01/08/2007   Contractor                                       29
OAM/FAOSC    2007-4-00079   09/25/2007   Contractor                                       30
OAM/FAOSC    2007-1-00061   04/09/2007   Contractor                                       29
OAM/FAOSC    2007-1-00079   07/18/2007   Contractor                                       29
OAM/FAOSC     08-4-0157     05/20/2008   Contractor                                       31
OAM/FAOSC     08-4-0002     10/02/2007   Contractor                                       30
OAM/FAOSC    2006-4-00120   07/20/2006   Contractor                                       28
OAM/FAOSC    2007-4-00080   09/26/2007   Contractor                                       30
OAM/FAOSC    2006-4-00165   09/27/2006   Contractor                                       28
OAM/FAOSC    2006-4-00169   09/29/2006   Contractor                                       28
OAM/FAOSC    2007-1-00059   04/05/2007   Contractor                                       29
OAM/FAOSC    2007-4-00058   04/30/2007   Contractor                                       29
OAM/FAOSC     08-1-0129     04/10/2008   Contractor                                       30
OAM/FAOSC    2007-1-00080   08/30/2007   Contractor                                       29
OAM/FAOSC     08-4-0259     09/12/2008   Contractor                                       32
OAM/FAOSC     08-4-0207     07/24/2008   Contractor                                       31
OAM/FAOSC     09-1-0034     11/24/2008   Contractor                                       32


                                           7
                                                                         09-X-0196


   Action          OIG Report     Report
   Official          Number        Date                   Report Title       Page
 OAM/FAOSC          08-4-0308   09/30/2008   Contractor                       31
 OAM/FAOSC          09-4-0018   11/05/2008   Contractor                       32
 OAM/FAOSC          08-4-0208   07/24/2008   Contractor                       31
Source: OIG analysis




                                               8
                                                                                          09-X-0196


                                                                                    Attachment 2

                  Details on OIG Reports with
              Open Findings and Recommendations

Financial Audits of Assistance Agreement Recipients
The OIG performs financial audits of EPA assistance agreements to determine whether recipients
claimed amounts that were reasonable, allocable, and allowable according to federal cost
principles. These audits evaluate whether recipients maintained adequate financial management
systems, complied with applicable laws and federal regulations, and achieved the intended
purposes of the grants. We identified nine reports with open recommendations related to EPA
assistance agreement recipients as of June 30, 2009. Details of the findings and
recommendations for each report follow.

Report: National Caucus and Center on Black Aged, Inc., Incurred Cost Audit of Eight EPA
Cooperative Agreements (08-1-0277), September 25, 2008

The recipient-reported outlays in its quarterly Financial Status Reports as of September 30, 2007,
presented fairly, in all material respects, the allowable outlays incurred in accordance with the
terms and conditions of the agreements and applicable laws and regulations. However, the
recipient did not clearly disclose its allocation methods in its indirect cost proposals. The
recipient also charged employee leave costs to grants disproportionately to the amount of time
employees spent on each assistance agreement.

Recommendations: We recommended that EPA’s GIAMD require the recipient to: (1) revise its
indirect cost proposals to clearly explain the process used to allocate costs to its agreements;
(2) have the revised proposals approved by its cognizant federal agency; (3) use a more equitable
method for allocating employee paid absences to agreements; and (4) revise its accounting
manual to include procedures to ensure that final accounting of administrative costs occur timely.

Report: Canaan Valley Institute, Inc., Incurred Cost Audit of Five EPA Cooperative
Agreements (08-4-0156), May 19, 2008

We questioned $3,235,927 of the $6,686,424 in reported net outlays because the recipient
reported unallowable outlays for indirect, contractual, and in-kind costs. Specifically, the
recipient: (1) claimed indirect costs without approved indirect rates; (2) did not credit back to
the agreements all program income; (3) did not demonstrate that it performed cost analysis of
contracts; (4) reported costs for services outside of the scope of one agreement; (5) did not
comply with terms and conditions of contracts; and (6) used EPA funds to match another
federally-funded cooperative agreement. Also, the recipient could improve its sub-recipient
monitoring program.




                                                 9
                                                                                        09-X-0196


Recommendations: We recommended that EPA Region 3 recover questioned outlays of
$3,218,661 unless the recipient provides sufficient documentation to support the related reported
costs in accordance with federal regulations. EPA Region 3 should require the recipient to
prepare and submit its indirect cost rate proposals for negotiation using the accrual method, and
disclose the direct allocation methodology. The recipient should credit $17,266 in program
income to the agreements and ensure that cost and pricing are performed and documented as part
of its contract procurement process. We also recommended EPA Region 3 direct the recipient to
revise its sub-recipient monitoring program to require technical reports from its sub-recipients
and time its sub-recipient payments to ensure the funds are expended timely by its sub-recipients.

Report: Cheyenne River Sioux Tribe Outlays Reported Under Five EPA Assistance
Agreements (2007-4-00078), September 24, 2007

The Tribe did not comply with the financial and program management standards under Title 40,
Code of Federal Regulations (CFR), Parts 31 and 35; and OMB Circular A-87. We questioned
$3,101,827 of the $3,736,560 outlays reported. The Tribe's internal controls were not sufficient
to ensure that outlays reported complied with federal cost principles, regulations, and grant
conditions. In some instances, the Tribe also was not able to demonstrate that it has completed
all work under the agreements and has achieved the intended results of the agreements.

Recommendations: We recommended that the EPA Region 8 Regional Administrator disallow
and recover the federal share of ineligible costs of $64,765. The Region should require the Tribe
to provide sufficient documentation for the remaining $3,037,062 questioned, and disallow and
recover the federal share of any outlays the Tribe cannot support. The Region should also
require the Tribe to adjust its indirect costs claimed. The Region should provide training to the
Tribe on federal regulations and grant requirements, and review the Tribe’s solicitations and
contracts under EPA agreements until the Tribe has adequate procedures in place. The Region
should confirm that all work under the agreements was satisfactorily completed prior to
agreement closeout. The Region should maintain the Tribe’s “high risk” designation until all
audit issues have been resolved.

Report: Examination of Financial Management Practices of National Rural Water
Association, Duncan, Oklahoma (2007-4-00027), November 30, 2006

The Association’s method of allocating indirect costs over total direct costs is contrary to the
requirements of OMB Circular A-122. Currently, the Association does not exclude subcontracts
or sub-awards from its indirect cost allocation base. As a result, EPA grants are bearing a
disproportionate amount of indirect costs. For the period March 1, 1999, to February 29, 2004,
EPA grants may have been over-allocated by $2,021,821 in indirect costs. The exact amount of
the indirect over-allocation will be determined during negotiation of the indirect cost rate.

Association practices did not comply with OMB Circular A-122 in the following instances:
   •   Procedures did not identify all unallowable costs and the Association did not have written
       procedures for reviewing costs.
   •   Costs were charged based on budgets and the Association did not consistently record
       costs based on actual activity.


                                               10
                                                                                          09-X-0196


   •   Direct and indirect costs may have included unallowable costs.
   •   Drawdowns were based on budget amounts and not actual expenditures.

Recommendations: We recommended that the Director of the Grants Administration Division
(1) obtain final negotiated indirect cost rates for the Association; and (2) require the Association
to develop written procedures to (a) identify unallowable costs in accordance with OMB Circular
A-122, and (b) develop written procedures for the preparation of cash draws.

Report: International City/County Management Association Reported Outlays Under Seven
Selected Cooperative Agreements (2007-4-00026), November 28, 2006

We questioned $1,007,858 of the $9,871,025 in reported outlays because the recipient claimed
unallowable outlays for contractual services, sub-grant costs, indirect labor costs, and in-kind
costs. Specifically, the recipient did not:

   •   compete contracts, justify a sole-source procurement, or perform contract cost analysis;
   •   oversee or maintain documentation for sub-grants; and
   •   maintain adequate documentation for in-kind costs used as recipient match.

We also questioned indirect costs the recipient claimed that were prohibited by law. For
Brownfields grants, recipients are prohibited by law from claiming administrative costs, which
EPA has determined to include indirect costs. However, EPA included in the grant a special
condition to allow the recipient to claim some indirect costs as direct costs under the grant. The
special condition conflicts with OMB regulations regarding direct and indirect costs. Therefore,
we questioned indirect costs claimed under the award.

Recommendations: We recommended that EPA’s GIAMD: (1) disallow the questioned outlays
of $78,298 prohibited by law; (2) obtain sufficient documentation to support the remaining
questioned outlays of $929,560 in accordance with EPA regulations or disallow the costs from
federal grant participation; and (3) direct the recipient to establish procedures to address issues
related to procuring contracts, managing sub-recipients, and documenting in-kind costs.

Report: Association of State and Interstate Water Pollution Control Administrators Incurred
Costs for Seven EPA Assistance Agreements (2006-4-00122), July 31, 2006

The Association did not comply with financial and program management standards and
procurement standards promulgated in Title 40 CFR, Subchapter B, Part 30. The Association:
(1) could not provide support for any of its general journal entries; (2) included duplicate
recorded costs in its accounting system; (3) could not always trace grant draws to the accounting
records; (4) could not always support labor charged to the EPA grants; (5) could not support the
recorded indirect costs; (6) did not record all of its program income; (7) did not have adequate
written procedures for determining reasonable, allocable, and allowable costs; (8) drew EPA
grant funds in excess of the funds needed; and (9) did not complete the required single audits for
fiscal years ended June 30, 2004, and June 30, 2005. Also, the Association’s procurement
system did not comply with procurement standards. The Association awarded contracts to the



                                                11
                                                                                          09-X-0196


America’s Clean Water Foundation, a related organization, without competition or a cost
analysis, contrary to the requirements of Title 40 CFR 30.42 and 30.45.

Recommendations: We recommended that EPA’s GIAMD: (1) recover $1,883,590 unless the
Association is able to reconstruct its accounting records to meet the minimum financial
management standards required in Title 40 CFR 30.21; (2) disallow contract costs procured in
violation of Title 40 CFR 30.42 and 30.45; (3) rescind provisional indirect cost rates for the fiscal
years ended June 30, 2005, and June 30, 2006; (4) stop work on all active grants and refrain from
awarding any new grants until EPA has assurances that the Association meets minimum financial
management requirements; (5) keep the Association on the reimbursement payment method until
the Association meets minimum financial management requirements, settles current federal
liabilities, and repays all disallowed costs; and (6) require the Association to comply with single
audit requirements for fiscal years ended June 30, 2004, and June 30, 2005.

Report: Geothermal Heat Pump Consortium, Inc., Costs Claimed Under EPA Assistance
Agreement Nos. X828299-01 and X828802-01 (2003-4-00120), September 30, 2003

We questioned $1,153,472 due to material financial management deficiencies. The
Consortium’s financial management system was inadequate in that the Consortium did not:
(1) separately identify and accumulate the costs for all direct activities, such as membership
support and lobbying; (2) account for program income generated by the activities funded by the
EPA agreements; (3) prepare or negotiate indirect cost rates; (4) prepare written procedures for
allocating costs to final cost objectives; (5) maintain an adequate labor distribution system; and
(6) provide adequate support for direct cost allocations. In addition to the financial management
system deficiencies, the Consortium did not: (1) competitively procure contractual services or
perform any of the required cost or pricing analyses; and (2) comply with all reporting
requirements.

Recommendations: We recommended that EPA’s GIAMD:

1) Evaluate the need and scope of the assistance agreements considering that there were other
   sources of income to support the activities; i.e., membership dues and agreements with other
   federal agencies. If EPA determines that there was not a need for the assistance, take action
   to annul the assistance agreement(s).

If EPA decides to allow agreements, we recommended that EPA:

2) Recover the $1,153,472 of unsupported costs.
3) Suspend work under the current agreements and refrain from awarding new funds until the
   Consortium can demonstrate that its accounting practices are consistent with 40 CFR 30.21.
   At a minimum, the Consortium’s system must: (a) ensure that financial results are current,
   accurate, and complete; (b) include written procedures to determine reasonableness,
   allocability, and allowability of costs in accordance with OMB Circular A-122; (c) include
   accounting records that are supported by adequate source documentation; (d) require the
   Consortium to establish an adequate time distribution system that meets the requirements of
   OMB Circular A-122, Attachment B, paragraph (7) – the system should account for total
   hours worked and leave taken, and identify all the specific activities and final cost objectives


                                                 12
                                                                                       09-X-0196


   that the employees work on during the pay period, including membership and lobbying
   activities; and (e) require the Consortium to follow all procurement standards under 40 CFR
   30.40 through 30.48.
4) Require the Consortium to submit an indirect cost rate proposal prepared in accordance with
   OMB Circular A-122.
5) Require the Consortium to provide detailed documentation supporting its use of program
   income to fund additional activities furthering eligible project or program objectives under
   assistance agreement X828802-01. If the Consortium cannot provide documentation,
   program income should be deducted from any costs EPA determines to be allowable under
   the assistance agreement.

If EPA determined some costs were allowable, we recommended that EPA’s GIAMD:

6) Deduct from allowable costs any program income earned by the membership activities
   funded under assistance agreement X828299-01.
7) Consider using program income from agreement number X828802-01 to fund the study not
   completed under agreement number X828299-01 per administrative condition number 15.

Report: EPA Cooperative Agreements Awarded to the Coordinating Committee for
Automotive Repair (Region 7 Proactive) (2003-S-00001), May 29, 2002

We questioned over $2 million because the Coordinating Committee for Automotive Repair did
not account for the funds in accordance with federal rules, regulations, and agreement terms.

Recommendations: We recommended that the Director, Grants Administration Division:

1) Require the Committee to modify its financial management system to meet the requirements
   of 40 CFR 30.21. At a minimum, the system must:
       • Ensure that financial results are current, accurate, and complete.
       • Include written procedures to determine reasonableness, allocability, and allowability
          of costs in accordance with OMB Circular A-122.
       • Include accounting records that are supported by adequate source documentation.
2) Require the Committee to develop a time distribution system that meets the requirements of
   OMB Circular A-122.
3) Refrain from providing any new funds until the Agency confirms that the Committee has the
   financial management capabilities to manage funds in accordance with 40 CFR 30.21 and
   OMB Circular A-122.
4) Require the Committee to reconstruct the accounting records necessary to support the
   expenditure of funds in accordance with OMB Circular A-122. At a minimum, the
   Committee will need to review timesheets, logs, or other records to identify the time actually
   spent on EPA authorized activities.
5) Require the Committee to submit indirect cost proposals for the fiscal periods 1995 to the
   present in accordance with OMB Circular A-122.
6) Recover all ineligible costs that do not meet the requirements of OMB Circular A-122.
7) Recover all funds that cannot be supported in accordance with OMB Circular A-122.




                                               13
                                                                                       09-X-0196


Report: Procurement Practices Under Grant No. X825532-01 Awarded to MBI International
(2002-2-00008), January 29, 2002

MBI did not have adequate justifications to support the award of sole source contracts. Also,
MBI’s procurement practices did not meet federal requirements. As a result, $1,301,365 in
contract costs and $99,508 in consultant costs are not eligible for federal reimbursement.
Further, there were apparent conflicts of interest between MBI, a subsidiary, and companies that
the subsidiary created.

Recommendation: We recommended that the Director, Grants Administration Division,
disallow the $1,301,365 of ineligible costs incurred under EPA grant X825532-01.




                                               14
                                                                                         09-X-0196


Forensic Audits of Assistance Agreement and Contract Recipients

The OIG conducts forensic audits of EPA assistance agreement and contract recipients to
determine the acceptability and allowability of costs claimed and whether recipients complied
with federal regulations. The OIG determines whether safeguards exist to ensure recipients and
sub-recipients use funds for their intended purposes. We identified four forensic audit reports
with open findings and recommendations as of June 30, 2009.

Report: Costs Claimed under EPA Grant XP98011401 Awarded to the City of Rupert, Idaho
(09-2-0078), January 12, 2009

The grantee did not meet Title 40 CFR Part 31 requirements for financial management. The
grantee claimed: unsupported costs, unallowable pre-award costs, unallowable interest costs, and
unallowable equipment costs. The grantee also reported cumulative total project costs that were
not supported by accounting records. Therefore, EPA needs to recover $63,256 of the $423,106
in costs questioned under the grant.

Recommendation: We recommended that EPA Region 10’s Regional Administrator disallow
$423,106 and recover $63,256 in costs questioned under grant XP98011401.

Report: ML Wastewater Management, Inc. – Procurement, Financial Management, and
Lobbying Issues Under EPA Grant Number XP97572201 (09-4-0112), March 9, 2009

The grantee’s financial management system was not sufficient to ensure that reported costs
complied with federal regulations. The grantee’s claim included unallowable costs involving
procurement, interest, organizational costs, lobbying, indirect costs, and labor and fringe benefit
costs. Further, total project costs may be unreasonable. The grantee also may not have provided
at least 0.4 new acres of wetlands to replace wetlands filled during construction.

Recommendations: We recommended that the Regional Administrator, EPA Region 5, recover
$801,118 of the questioned costs, recover any unreasonable project costs, and designate the
grantee as a high-risk grantee.

Report: 09-4-0135, April 3, 2009

Based on our review, we found the contactor over-billed EPA for labor charges.

Recommendations: We recommended that the Regional Administrator, EPA Region 3, request
the Office of Policy and Management’s Contracting Officer to seek reimbursement of the over-
billed labor charges.




                                                15
                                                                                         09-X-0196


Report: 09-4-0133, April 3, 2009

We found, the contractor had not maintained books and records (i.e., general ledger, monthly
financial statements, etc.) and was not able to reconcile labor hours to its accounting system.

Recommendations: We recommended that the EPA Regional Administrator, Region 5, utilize
the information provided in deciding whether to exercise the award term options and in any
future contracting decisions concerning the contractor.




                                                16
                                                                                                     09-X-0196


Single Audits

The Single Audit Act, as amended, requires non-federal entities (States, local governments,
universities, tribal governments, and non-profit organizations) that expend $500,000 or more of
federal financial assistance during a fiscal year to have an annual, comprehensive “single audit”4
that covers all federal expenditures (including grants, contracts and loans). The single audit is
performed on the recipient’s financial statements and compliance with major federal program
requirements. The single audit report contains the applicable opinions given by the single
auditor as well as the following major sections: (1) the recipient’s financial statements; (2) the
schedule of expenditures of federal awards; (3) a report on compliance with laws, regulations,
and grant/contract requirements; (4) a schedule of findings and questioned costs (if applicable);
and (5) the recipient’s corrective action plan(s). Federal agencies use single audits as a means to
ensure that recipients are expending federal resources properly, and to assess the overall financial
management capability of these recipients.

Table 2-1 lists prior Single Audit reports with open findings and recommendations as of June 30,
2009.

Table 2-1: Single Audit Reports with Open Recommendations
    Action Official      Single Audit Report            Summary of Findings and Recommendations
    GIAMD             Report No. 2005-3-00036      The Board allocated salary costs to grants based on
                      National Indian Health       pre-determined formulas not supported by timesheets
                      Board                        and charged amounts to various grants not always
                      FY 2002                      supported by original documentation. As a result, the
                      Issued: 12/30/2004           single auditor questioned $31,960 in unsupported costs.

                                                   Recommendations: We recommended that the Action
                                                   Official recover the questioned costs of $31,960, unless
                                                   the recipient can provide adequate documentation to
                                                   support these costs. We also recommended that EPA
                                                   confirm the corrective action identified in the single audit
                                                   report was implemented; if not, EPA needs to obtain a
                                                   corrective action plan, with milestone dates, for
                                                   addressing the finding in the report.
    GIAMD             Report No. 2006-3-00006      The University's accounting system provided certified
                      Alfred University            payroll information on an individual grant basis.
                      FY 2004                      However, the payroll distribution system did not provide a
                      Issued: 10/13/2005           proportionate breakdown of each employee's total time
                                                   between each sponsored program he/she may be
                                                   working on and other non-sponsored activities. The
                                                   auditor questioned costs of $649,506, but could not
                                                   determine the direct impact upon EPA's program.

                                                   Recommendations: We recommended that EPA
                                                   require the University to provide adequate documentation
                                                   to demonstrate that payroll costs claimed are allowable
                                                   and allocable to EPA’s grant. If the University is unable

4
  OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, and the Compliance
Supplement, provide guidance in implementing single audit requirements. The auditor must conduct the single audit
in accordance with Government Auditing Standards.


                                                       17
                                                                                             09-X-0196


Action Official     Single Audit Report          Summary of Findings and Recommendations
                                            to provide sufficient and adequate documentation to
                                            support the payroll costs; EPA should recover these
                                            costs. We recommended the Action Official confirm the
                                            recipient implemented the corrective action identified in
                                            the single audit report.
GIAMD             Report No. 2006-3-00199   The University had numerous payroll charging errors.
                  Howard University         The University did not: (1) have a formal procedure for
                  FY 2005                   documenting the journal entries made relating to cost
                  Issued: 09/07/2006        transfers; (2) consistently perform sub-recipient
                                            monitoring procedures in accordance with its published
                                            policy; (3) allow for specific identification in the general
                                            ledger of the items used to meet the matches on
                                            federally-sponsored grants with cost-share requirements;
                                            (4) communicate with the applicable federal awarding
                                            agency regarding $435,654 in assets that were disposed
                                            of, as required by federal regulation; (5) follow its
                                            established internal controls over the financial reporting
                                            process for quarterly and final financial status reports;
                                            and (6) have adequate procurement procedures.

                                            Recommendations: We recommended the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If corrective
                                            action has not been implemented, EPA needs to obtain a
                                            corrective action plan, with milestone dates, for
                                            addressing the finding in the report.
Region 1          Report No. 2006-3-00203   The Tribe did not invest in governmental securities as
                  Indian Township Tribal    required by OMB Circular A-133, Compliance
                  Government                Supplement, or have written investment policies and
                  FY 2002                   procedures. The Tribe did not: have an adequate
                  Issued: 09/18/2006        accounting system to record, process, and summarize
                                            accounting transactions; timely reconcile its bank
                                            accounts within its internal accounting system; and
                                            submit its financial statement audits, which had been as
                                            late as 2 years, in a timely manner. The Tribe maintains
                                            manual general ledger and bookkeeping systems
                                            decentralized from the Tribal books. The Tribe did not
                                            attach or could not find supporting receipts for various
                                            transactions.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If corrective
                                            action has not been implemented, EPA needs to obtain a
                                            corrective action plan, with milestone dates, for
                                            addressing the finding in the report.
Region 1          Report No. 2006-3-00204   The Tribe did not invest in governmental securities as
                  Indian Township Tribal    required by OMB Circular A-133, Compliance
                  Government                Supplement. The Tribe did not have written investment
                  FY 2003                   policies and procedures; or an adequate accounting
                  Issued: 09/18/2006        system to record, process, and summarize accounting
                                            transactions. The Tribe maintains bank accounts within
                                            its internal accounting system that have not been timely
                                            reconciled. The Tribe has a chronic problem of late



                                               18
                                                                                            09-X-0196


Action Official     Single Audit Report          Summary of Findings and Recommendations
                                            financial statement audits and has been recently as far as
                                            2 years behind in submission of audit reports. The Tribe
                                            maintains manual general ledger and bookkeeping
                                            systems decentralized from the tribal books. While
                                            testing transactions for federal programs, specifically
                                            environmental, supporting receipts were not attached and
                                            could not be found for payments of various transactions
                                            by the Tribe. Tribal and federal program requirements
                                            over fiscal spending require approved budgets. For the
                                            year audited, the Tribe exceeded various budget line
                                            items for tribal government. The Tribe has numerous
                                            bank accounts with financial institutions; approximately
                                            $557,000 was uninsured or uncollateralized cash as of
                                            September 30, 2003.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If corrective
                                            action has not been implemented, EPA needs to obtain a
                                            corrective action plan, with milestone dates, for
                                            addressing the finding in the report.
Region 1          Report No. 2006-3-00205   The Tribe did not invest in governmental securities as
                  Indian Township Tribal    required by OMB Circular A-133, Compliance
                  Government                Supplement. The Tribe did not have written investment
                  FY 2004                   policies and procedures. The Tribe did not have an
                  Issued: 09/19/2006        adequate accounting system to record, process, and
                                            summarize accounting transactions. The Tribe maintains
                                            bank accounts within its internal accounting system that
                                            have not been timely reconciled. The Tribe has a chronic
                                            problem of late financial statement audits and has been
                                            recently as far as 2 years behind in submission of audit
                                            reports. The Tribe maintains manual general ledger and
                                            bookkeeping systems decentralized from the tribal books.
                                            While testing transactions for federal programs,
                                            specifically environmental, supporting receipts were not
                                            attached and could not be found for payments of various
                                            transactions by the Tribe. Tribal and federal program
                                            requirements over fiscal spending require approved
                                            budgets. For the year audited, the Tribe exceeded
                                            various budget line items for tribal government. The
                                            Tribe has numerous bank accounts with financial
                                            institutions; approximately $592,634 was uninsured or
                                            uncollateralized cash as of September 30, 2004. The
                                            Tribe did not submit timely quarterly reports.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If corrective
                                            action has not been implemented, EPA needs to obtain a
                                            corrective action plan, with milestone dates, for
                                            addressing the finding in the report.
GIAMD             Report No. 2007-3-00037   The University's current system provided certified payroll
                  Alfred University         information on an individual grant basis. However, the
                  FY 2005                   payroll distribution system did not provide a proportionate



                                               19
                                                                                            09-X-0196


Action Official      Single Audit Report        Summary of Findings and Recommendations
                  Issued: 12/11/2006        breakdown of each employee's total time between each
                                            sponsored program he or she may be working on and
                                            other non-sponsored activities. The auditor questioned
                                            costs of $856,419, but could not determine the direct
                                            impact upon EPA's program.

                                            Recommendations: We recommended that EPA
                                            require the University to provide adequate documentation
                                            to demonstrate that payroll costs claimed are allowable
                                            and allocable to EPA’s grant. If the University is unable
                                            to provide sufficient and adequate documentation to
                                            support the payroll costs; EPA should recover these
                                            costs. We recommended the Action Official confirm the
                                            recipient implemented the corrective action identified in
                                            the single audit report.
Region 2          Report No. 2007-3-00139   The State had 191 audit reports with findings that were
                  New York, State of        required to have management decisions rendered within
                  FY 2006                   6 months. Of these, only 72 had been completed in a
                  Issued: 07/26/2007        timely manner, 73 required more than 6 months to
                                            complete, and 46 had no decision rendered. The
                                            recipient did not have adequate program asset controls,
                                            inventory procedures, and proper tagging of items. The
                                            State did not maintain a complete list of its assets.
                                            Additionally, the State could not always locate items that
                                            appeared on the asset lists. The recipient did not have
                                            any evidence of a policy or procedure in place to ensure
                                            proceeds from the sale or disposal of the assets could be
                                            identified and returned to the federal program. The single
                                            audit report for the year ended March 31, 2005, was
                                            received by the New York Department of Environment
                                            Conservation (the prime recipient) in July 2005.
                                            However, the management decision was dated May
                                            2006, five months late. The recipient has had the same
                                            finding in prior years and the Department has not
                                            ensured that its recipient has taken timely and
                                            appropriate corrective action.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If corrective
                                            action has not been implemented, EPA needs to obtain a
                                            corrective action plan, with milestone dates, for
                                            addressing the finding in the report.
Region 8          Report No. 08-3-0247      Program income was not properly recognized and
                  North Dakota, State of    reported by North Dakota State University.
                  FY 2006
                  Issued: 09/04/2008        Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If the
                                            corrective action has not been implemented, EPA needs
                                            to obtain a corrective action plan, with milestone dates,
                                            for addressing the findings in the report.
Region 1          Report No. 08-3-0250      The Tribe did not submit Standard Forms 269 and 272
                  Indian Township Tribal    within required timeframes (see Finding 2005-9 on page



                                               20
                                                                                            09-X-0196


Action Official      Single Audit Report        Summary of Findings and Recommendations
                  Government               77 of the audit report). We reported this finding to EPA
                  FY 2006                  for resolution since the Tribe did not fully address this
                  Issued: 09/05/2008       issue in FY 2006, and in FY 2006, the Tribe continued to
                                           struggle with processing financial information timely. For
                                           the EPA Partnership Performance grants, the single
                                           auditor reported that the Tribe did not have records or
                                           formal calculations to demonstrate that it met the
                                           matching requirements under these grants. During the
                                           review of the EPA Lead Educational Outreach grant
                                           PH-97122801, the single auditor identified payroll
                                           charges for an employee who traditionally had been paid
                                           using general fund resources. A review of the
                                           employee's timesheets and data sheet did not indicate
                                           that this individual's job responsibilities had changed.
                                           Therefore, there is no reason for this employee to charge
                                           the EPA grant. The single auditor questioned $26,134 in
                                           unsupported costs.

                                           Recommendations: We recommended that EPA:
                                           (1) Recover the $26,134 in questioned unsupported
                                           costs, unless the Tribe can provide adequate
                                           documentation to support these costs. (2) Ensure that
                                           the Tribe has taken appropriate corrective action to
                                           address the findings in the single audit report. If the Tribe
                                           has not completed corrective action, it needs to provide a
                                           corrective action plan and milestone dates to address the
                                           findings. (3) For the EPA Performance Partnership
                                           grants, ensure that the Tribe has adequate
                                           documentation to support its matching requirements. If
                                           the Tribe cannot provide adequate support, EPA should
                                           recover any unmatched costs accordingly.
Region 8          Report No. 08-3-0307     The Tribe did not: (1) have an adequate system of
                  Oglala Sioux Tribe       accounting duties and internal controls to assure
                  FY 2004                  adequate internal controls over the safeguarding of
                  Issued: 9/30/2008        assets and reliability of financial records and reporting;
                                           (2) perform reconciliations on a timely basis; (3) post
                                           cash receipts and other activity regularly into the general
                                           ledger; and (4) record several bank accounts in the
                                           general ledger. Additionally, there were many significant
                                           adjusting journal entries posted after the close of the
                                           books at year end. The single auditor identified several
                                           findings that affect indirect costs. First, the Tribe was not
                                           allocating the indirect cost rate properly to various
                                           programs. Second, during testing of indirect cost
                                           expenditures, the auditor found expenditures that should
                                           have been charged directly to programs. Also, some
                                           expenditures charged to the indirect cost fund were not
                                           necessary and reasonable. In testing transactions, the
                                           single auditor found that the Tribe did not have
                                           documentation to support accounts payable, travel costs,
                                           and fringe benefits. As a result, we questioned all
                                           reported expenditures of $1,158,903.

                                           Recommendations: We recommended that EPA
                                           Region 8: (1) Require the Tribe to prepare a


                                              21
                                                                                           09-X-0196


Action Official     Single Audit Report         Summary of Findings and Recommendations
                                           reconciliation of its reported expenditures to its official
                                           general ledger. (2) Once the reconciliation is completed,
                                           select a sample of transactions to review, in detail, to
                                           ensure the costs are allowable, allocable, and reasonable
                                           under federal regulations and EPA grant requirements.
                                           Prior to sample selection, the Region should meet with
                                           the OIG to discuss its proposed sampling approach.
                                           (3) For any costs that are not adequately supported,
                                           recover these costs, accordingly.
Region 1          Report No. 09-3-0024     There are several EPA grants where the official time
                  Indian Township Tribal   period has expired, but the Tribe still has funds available
                  Government               under these grants and potential related expenditures.
                  FY 2007                  To have access to these funds, the Tribe needs to
                  Issued: 11/12/2008       request time extensions from EPA. The Tribe has drawn
                                           funds from various federal programs to pay general fund
                                           expenditures, which is not allowable. The single auditors
                                           noted a net deficit to federal programs of $189,961.
                                           The Tribe recognized this condition existed due to
                                           misappropriation activities by the former Tribal governor.

                                           Recommendations: We recommended that EPA ensure
                                           the Tribe took corrective action to address the findings in
                                           the single audit report. If the Tribe has not completed
                                           corrective action, it needs to provide a corrective action
                                           plan with milestone dates to address the findings.
GIAMD             Report No. 09-3-0038     In the prior year audit, the single auditor found that some
                  Water Environment        expenses had been charged twice to this grant. To
                  Federation               correct this error, the Federation was required to post an
                  FY 2006                  adjusting entry; however, the entry was not posted until
                  Issued: 11/21/2008       almost a year after the errors were identified.

                                           Recommendations: We recommended that EPA
                                           ensure that the recipient has taken appropriate action to
                                           address the finding in the single audit report. If the
                                           recipient has not completed corrective action, it needs to
                                           provide a corrective action plan and milestone dates to
                                           address the finding.
Region 2          Report No. 09-3-0050     The Tribe requested grant drawdowns in excess of
                  St. Regis Mohawk Tribe   current cash needs. The Performance Partnership
                  FY 2007                  program had a material positive cash balance for
                  Issued: 12/08/2008       6 months. The Tribe was unable to provide
                                           documentation that a fixed asset physical inventory was
                                           completed for the audit year for the Performance
                                           Partnership Grant program. The Tribe had one credit
                                           card charge that was not properly authorized for the
                                           Performance Partnership Grant program, BG99267201.

                                           Recommendations: We recommended that the Action
                                           Official confirm the recipient implemented the corrective
                                           action identified in the single audit report. If corrective
                                           action has not been implemented, EPA needs to obtain a
                                           corrective action plan, with milestone dates, for
                                           addressing the findings in the audit report.




                                              22
                                                                                               09-X-0196


Action Official      Single Audit Report           Summary of Findings and Recommendations
Region 2          Report No. 09-3-0063        The District did not have proper segregation of duties
                  Cayuga County Soil and      over assets. The District did not have one individual
                  Conservation District       charged with overseeing the entire Anaerobic Digester
                  FY 2006                     Project. Instead, funds were requested by different
                  Issued: 12/18/2008          individuals. Therefore, a single disbursement could be
                                              claimed under more than one grant as either a direct
                                              expense or as a cost share of the District. The District did
                                              not request drawdowns on a reimbursement basis as
                                              preferred by the grantor agency. Additionally, no
                                              supporting documentation was maintained to justify the
                                              amounts requested, whether for an advance or a
                                              reimbursement of expenses. The single auditors noted
                                              that 16 of 46 transactions selected for examination were
                                              not approved by the Executive Director as required by the
                                              District’s purchasing policy.

                                              Recommendations: We recommended that the Action
                                              Official confirm the corrective action the recipient
                                              identified in the single audit report was implemented.
                                              If the corrective action has not been implemented, EPA
                                              needs to obtain a corrective action plan, with milestone
                                              dates, for addressing the finding in the audit report.
GIAMD             Report No. 09-3-0073        The Council did not: (1) properly segregate duties;
                  Environmental Council of    (2) formally review and approve journal entries prepared
                  the States and Affiliates   by the accountant; (3) reconcile major accounts such as
                  FY 2006                     cash, accounts receivable, grants receivable, deferred
                  Issued: 01/06/2009          revenue, and grant revenue, to supporting schedules in a
                                              timely manner; (4) reconcile various accounts such as
                                              cash, accounts receivable, grants receivable, and
                                              deferred revenue that contained material misstatements;
                                              (5) consistently reflect an accurate recording of federal
                                              grant revenue and receivables in its accounting system;
                                              and (6) submit its FY 2006 reporting package within a
                                              timely manner. Compensation time earned by working
                                              hours in excess of standard weekly hours in 1 week and
                                              used in a subsequent week is charged to the federal
                                              program for the week the time is used rather than for the
                                              week the time was worked and earned.

                                              Recommendations: We recommended that the Action
                                              Official confirm the recipient implemented the corrective
                                              action identified in the single audit report. If the
                                              corrective action has not been implemented, EPA needs
                                              to obtain a corrective action plan, with milestone dates,
                                              for addressing the findings in the report.
GIAMD             Report No. 09-3-0062        The University did not have an effective system of
                  Missouri, University of     internal control in place to ensure compliance with (1) the
                  FY 2006                     activities allowed or unallowed costs/cost principles
                  Issued (Revised):           compliance requirements; (2) the procurement and
                  01/07/2009                  suspension and debarment compliance requirements;
                                              and (3) the sub-recipient monitoring compliance
                                              requirement. The University also did not perform an
                                              effective or timely review of the sub-recipients' OMB
                                              Circular A-133 Single Audit Reports; issue management



                                                 23
                                                                                              09-X-0196


Action Official     Single Audit Report           Summary of Findings and Recommendations
                                             decisions on audit findings within 6 months after receipt
                                             of the sub-recipients' OMB Circular A-133 Single Audit
                                             Reports; and ensure that the sub-recipients took
                                             appropriate and timely corrective action as required by
                                             OMB Circular A-133. The auditor questioned $90,973.

                                             Recommendations: We recommended that the Action
                                             Official: (1) Confirm the recipient implemented the
                                             corrective action identified in the single audit report. If
                                             the corrective action has not been implemented, EPA
                                             needs to obtain a corrective action plan, with milestone
                                             dates, for addressing the findings in the audit report.
                                             (2) Recover $90,973 in questioned costs unless the
                                             University can provide adequate documentation that the
                                             costs claimed are allowable and allocable to the
                                             assistance agreement(s).
Region 9          Report No. 09-3-0075       The Reservation’s cash on hand ($136,000) exceeded
                  Lone Pine Paiute-          current expenditures. This finding was originally reported
                  Shoshone Reservation       in FY 2005, and was not corrected in FY 2006.
                  FY 2006
                  Issued: 01/08/2009         Recommendations: We recommended that the Action
                                             Official: (1) Require the Reservation to provide
                                             expenditure documentation to support the $136,000 in
                                             excessive cash draws. If the Reservation is unable to
                                             provide adequate documentation, the Reservation should
                                             reimburse EPA, including applicable interest. (2) Confirm
                                             the corrective action the recipient identified in the single
                                             audit report was implemented. If the corrective action
                                             has not been implemented, EPA needs to obtain a
                                             corrective action plan, with milestone dates, for
                                             addressing the finding in the report.
Region 9          Report No. 09-3-0077       Due to improperly prepared bank account reconciliations
                  La Jolla Band of Luiseno   in prior years up to FY 2005, as well as changes made to
                  Indians                    transactions subsequent to reconciliation, many bank
                  FY 2006                    account reconciliations do not agree with the financial
                  Issued: 01/08/2009         statements.

                                             Recommendations: We recommended that the Action
                                             Official confirm the recipient implemented the corrective
                                             action identified in the single audit report. If the
                                             corrective action has not been implemented, EPA needs
                                             to obtain a corrective action plan, with milestone dates,
                                             for addressing the finding in the report.
Region 6          Report No. 09-3-0093       The cash balance on hand, $2,677, for the EPA grant
                  Seminole Nation of         under the Tribal Air Quality Program, was less than the
                  Oklahoma                   amount required, $3,410.
                  FY 2006
                  Issued: 02/11/2009         Recommendations: We recommended that the Action
                                             Official confirm the recipient implemented the corrective
                                             action identified in the single audit report. If the
                                             corrective action has not been implemented, EPA needs
                                             to obtain a corrective action plan, with milestone dates,
                                             for addressing the finding in the report.




                                                24
                                                                                              09-X-0196


Action Official      Single Audit Report        Summary of Findings and Recommendations
Region 8          Report No. 09-3-0102      The Tribe was unable to produce property listings for
                  Northern Cheyenne Tribe   FY 2006. The property listings provided were dated July
                  FY 2006                   2007. Also, the Tribe has not performed a physical
                  Issued: 02/24/2009        inventory of property and equipment within the past
                                            2 years for EPA Grant Number BG98852306. Of 27
                                            disbursements selected for testing, 4 I-9 forms were not
                                            properly completed for EPA Grant Number BG98852306.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If the
                                            corrective action has not been implemented, EPA needs
                                            to obtain a corrective action plan, with milestone dates,
                                            for addressing the findings in the report.
Region 8          Report No. 09-3-0103      The City did not: (1) begin the A-133 audit until after the
                  The City of Hill City     9-month period had passed; (2) have segregation of
                  FY 2006                   duties over revenue, expenditure, and payroll functions;
                  Issued: 02/25/2009        (3) prepare, publish, or file its annual report for the year
                                            ended December 31, 2006; (4) report capital assets on its
                                            financial statements in accordance with Governmental
                                            Accounting Standards Board 34 and accounting
                                            principles; (5) present capital asset purchases as a
                                            separate line item in the Statement of Revenues,
                                            Expenditures, and Changes in Fund Balances for the
                                            Governmental Funds; (6) complete the year-end
                                            recordkeeping; and (7) post year-end entries to the
                                            general ledger. Deficiencies were noted in internal
                                            accounting control and recordkeeping, resulting in a
                                            diminished assurance that transactions are properly
                                            executed and recorded and that assets are properly
                                            safeguarded.

                                            Recommendations: We recommended that the Action
                                            Official confirm the recipient implemented the corrective
                                            action identified in the single audit report. If the
                                            corrective action has not been implemented, EPA needs
                                            to obtain a corrective action plan, with milestone dates,
                                            for addressing the findings in the report.
Region 10         Report No. 09-3-0104      The Tribe's policies and procedures were not designed to
                  Snoqualmie Tribe          ensure time elapsing between the transfer of funds from
                  FY 2006                   the U.S. Treasury and disbursement was minimized. The
                  Issued: 02/25/2009        approximate duration for cash carried is 5 working days
                                            cash needs; however, the Tribe carried cash for 9 months
                                            for an EPA grant. Travel advance payments to
                                            employees were not consistently reconciled with receipts.
                                            Evidence of event attendance was not consistently
                                            provided. Overpayments to employees and vendors
                                            were apparently disbursed. Federal funds were loaned to
                                            treasury cash from an EPA program; as a result, the
                                            auditors questioned $20,963.

                                            Recommendations: We recommended that the Action
                                            Official: (1) Confirm the recipient implemented the
                                            corrective action identified in the single audit report. If



                                               25
                                                                                           09-X-0196


Action Official     Single Audit Report        Summary of Findings and Recommendations
                                          the corrective action has not been implemented, EPA
                                          needs to obtain a corrective action plan, with milestone
                                          dates, for addressing the findings in the report.
                                          (2) Recover the $20,963 in unallowable costs that were
                                          loaned to the recipient's treasury cash account.

Region 6          Report No. 09-3-0108    The negative cash balance on hand, -$591, for the EPA
                  Seminole Nation of      grant, Tribal Air Quality Program, was less than the
                  Oklahoma                amount required, $2,341. This was due to the Nation
                  FY 2007                 lending funds to other programs. The auditors
                  Issued: 03/03/2009      questioned $2,932.

                                          Recommendations: We recommended that the Action
                                          Official: (1) Confirm the recipient implemented the
                                          corrective action identified in the single audit report. If
                                          the corrective action has not been implemented, EPA
                                          needs to obtain a corrective action plan, with milestone
                                          dates, for addressing the finding in the audit report.
                                          (2) Recover the $2,932 in questioned unsupported costs
                                          unless the Nation can provide adequate documentation
                                          that the costs claimed are allowable and allocable to the
                                          assistance agreement.
Region 10         Report No. 09-3-0109    The Tribe submitted late its indirect cost proposal, which
                  Nooksack Indian Tribe   was due June 30, 2005, for the year ended December
                  FY 2006                 31, 2006; the negotiated rate was not obtained until April
                  Issued: 03/03/2009      23, 2007. For the Environmental Services Program
                                          (Annual Performance Grant), the single auditor could not
                                          determine the dates the annual performance report or
                                          Standard Forms 272 were filed. The Tribe did not have
                                          adequate internal controls to certify payroll allocation
                                          between federal programs.

                                          Recommendations: We recommended that the Action
                                          Official confirm the recipient implemented the corrective
                                          action identified in the single audit report. If the
                                          corrective action has not been implemented, EPA needs
                                          to obtain a corrective action plan, with milestone dates,
                                          for addressing the findings in the audit report.
Region 3          Report No. 09-3-0126    Cumulative temporarily restricted net assets were not
                  Alliance for the        reconciled to the job cost system. The Alliance accrued
                  Chesapeake Bay          non-vesting accumulating sick leave.
                  FY 2007
                  Issued: 03/23/2009      Recommendations: We recommended that the Action
                                          Official confirm the recipient implemented the corrective
                                          action identified in the single audit report. If the
                                          corrective action has not been implemented, EPA needs
                                          to obtain a corrective action plan, with milestone dates,
                                          for addressing the findings in the report.
Region 8          Report No. 09-3-0140    While the auditor maintained independence under the
                  Anaconda-Deer Lodge     American Institute of Certified Public Accountants Ethics
                  County                  Interpretation of 101-3, Performance of Non-Attest
                  FY 2007                 Services, the auditor assisted in posting client-approved
                  Issued: 04/20/2009      adjusting entries to the trial balance and in the
                                          preparation of draft financial statements, notes, and



                                             26
                                                                                              09-X-0196


 Action Official       Single Audit Report        Summary of Findings and Recommendations
                                             supplementary schedules. The Treasurer of the County
                                             was unable to reconcile the County’s cash. At June 30,
                                             2007, the unreconciled amount was $39,568. The
                                             County has consulted with outside sources to help with
                                             the reconciliation process with considerable progress;
                                             however, the cash is still out of balance. Further, cash
                                             has not been reconciled since June 30, 2007. The
                                             County has not performed a physical inventory of fixed
                                             assets and compared the physical inventory to existing
                                             detailed records of fixed assets. Equipment was
                                             purchased without being approved in the Superfund
                                             Cooperative Agreement between EPA and the County.
                                             The auditors questioned $16,576. The County does not
                                             have an investment policy currently in force and has not
                                             been active in collecting personal property taxes. The
                                             Public Administrator has not posted an annual report in
                                             the office of the Clerk of the District Court. The County
                                             has not included a Management’s Discussion and
                                             Analysis as part of its supplementary information
                                             accompanying the basic financial statements, as required
                                             by Governmental Accounting Standards Board
                                             Number 43.

                                             Recommendations: We recommended that the Action
                                             Official: (1) Confirm the recipient implemented the
                                             corrective action identified in the single audit report. If
                                             the corrective action has not been implemented, EPA
                                             needs to obtain a corrective action plan, with milestone
                                             dates, for addressing the findings in the report.
                                             (2) Recover the $16,576 in questioned ineligible costs.
                                             Also, given the nature and extent of findings presented,
                                             we recommended that the Region closely consider the
                                             recipient’s financial capability prior to awarding any
                                             additional funds, including monies the Recovery Act may
                                             provide.
Source: OIG analysis




                                                27
                                                                                            09-X-0196


Defense Contract Audit Agency Audits
The Defense Contract Audit Agency (DCAA) audits contracts for the Department of Defense
and provides contract audit services to other government agencies. DCAA audits include
evaluations of contractor policies, procedures, and controls. These audits identify and evaluate
activities that contribute to or impact proposed or incurred government contract costs.

A contractor may have contracts with multiple Federal agencies and the reports cover all
government funding, not just EPA. The Federal agency that provides the most funding is
generally identified as cognizant and has the lead for resolving the report findings. For many
DCAA reports, EPA is not cognizant. Even though OAM is identified as the action official,
EPA may not be the lead agency responsible for resolving the report issues. Table 2-2 below
lists the 34 DCAA reports with open findings and recommendations related to EPA contract
recipients as of June 30, 2009.

Table 2-2: DCAA Reports with Open Recommendations
   Action
   Official          DCAA Audit Report            Summary of Findings and Recommendations
 OAM/FAOSC      OIG Report No. 2004-1-00099     DCAA questioned $3,595,399 in proposed general
                Issued: 09/14/2005              and administrative costs for FY 2002, of which EPA’s
                                                share equals $2,128. DCAA qualified the audit results
                                                pending receipt of assist audit reports.

                                                Recommendation: We recommended that the Action
                                                Official resolve the questioned costs.
 OAM/FAOSC      OIG Report No. 2006-4-00120     DCAA determined that the Information Technology
                Issued: 07/20/2006              system general internal controls were inadequate in
                                                part in 2006. DCAA’s examination disclosed certain
                                                significant deficiencies in the design or operation of
                                                the general internal controls that could adversely
                                                affect the organization’s ability to record, process,
                                                summarize, and report direct and indirect costs in a
                                                manner that is consistent with applicable government
                                                contract laws and regulations.

                                                Recommendation: We recommended that the Action
                                                Official resolve the issue.
 OAM/FAOSC      OIG Report No. 2006-4-00165     DCAA reported that the service centers cost system
                Issued: 09/27/2006              and related internal control policies and procedures
                                                were inadequate in part in 2006. DCAA's examination
                                                disclosed certain significant deficiencies in the design
                                                or operation of the Indirect/Other Direct Costs system
                                                process that could adversely affect the organization’s
                                                ability to record, process, summarize, and report
                                                Indirect/Other Direct Costs in a manner consistent
                                                with applicable government contract laws and
                                                regulations.

                                                Recommendation: We recommended that the Action
                                                Official resolve the issue.




                                                28
                                                                                       09-X-0196


  Action
  Official        DCAA Audit Report           Summary of Findings and Recommendations
OAM/FAOSC    OIG Report No. 2006-4-00169   DCAA reported that the labor accounting system was
             Issued: 09/29/2006            inadequate in part in 2006. DCAA's examination
                                           disclosed significant deficiencies in the design or
                                           operation of the internal control structure that could
                                           result in increased control risk for the reliability of
                                           labor charges.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.
OAM/FAOSC    OIG Report No. 2007-1-00016   DCAA questioned $188,772,784 in claimed direct
             Issued: 11/13/2006            costs and proposed indirect costs for FY 2001, of
                                           which EPA’s share is $1,729,601.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-4-00038   DCAA determined that certain labor practices require
             Issued: 01/08/2007            corrective action to improve the reliability of the
                                           contractor's labor accounting system in 2006.
                                           DCAA expressed no opinion on the adequacy of the
                                           system taken as a whole.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.
OAM/FAOSC    OIG Report No. 2007-1-00059   DCAA questioned $787,774 in proposed indirect costs
             Issued: 04/05/2007            in FY 2004, of which EPA’s share is $70,900.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-1-00061   DCAA questioned $34,708,911 in claimed direct costs
             Issued: 04/09/2007            and proposed indirect costs for FY 2004, of which
                                           EPA’s share is $694,178.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-4-00058   DCAA determined that certain labor practices require
             Issued: 04/30/2007            corrective action to improve the reliability of the
                                           contractor's labor accounting system. DCAA did not
                                           express an opinion on the adequacy of the
                                           contractor's labor accounting system taken as a
                                           whole.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.
OAM/FAOSC    OIG Report No. 2007-1-00079   DCAA questioned $11,969,625 in proposed indirect
             Issued: 07/18/2007            costs for FY 2005, of which EPA’s share is $119,696.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.




                                           29
                                                                                        09-X-0196


  Action
  Official        DCAA Audit Report          Summary of Findings and Recommendations
OAM/FAOSC    OIG Report No. 2007-1-00090   DCAA questioned $2,201,507 in claimed direct costs
             Issued: 08/29/2007            and proposed indirect costs for FY 2002, of which
                                           EPA’s share of questioned indirect costs is $123,686.
                                           None of the questioned direct costs impact EPA
                                           contracts.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-1-00080   DCAA questioned $10,982,460 in proposed indirect
             Issued: 08/30/2007            costs for FY 2005, of which EPA’s share equals
                                           $133,069.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-1-00097   DCAA questioned $300,645 in proposed indirect costs
             Issued: 09/20/2007            for FY 2003, of which EPA’s share is $27,058.

                                           Recommendation: We recommended that the Action
                                           Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 2007-4-00079   DCAA reported that the billing system and related
             Issued: 09/25/2007            internal control policies and procedures were
                                           inadequate. The DCAA examination noted certain
                                           significant deficiencies in the design or operation of
                                           the internal control structure, which in its judgment
                                           could adversely affect the contractor's ability to record,
                                           process, summarize, and report billings in a manner
                                           that is consistent with applicable government contract
                                           laws and regulations.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.
OAM/FAOSC    OIG Report No. 2007-4-00080   DCAA reported that the budget and planning system
             Issued: 09/26/2007            and related internal control policies and procedures
                                           were inadequate in part in 2006.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.
OAM/FAOSC    OIG Report No. 08-4-0002      DCAA reported that the compensation system and
             Issued: 10/02/2007            related internal control policies and procedures are
                                           inadequate in part in 2007. DCAA's examination
                                           noted certain significant deficiencies in the design or
                                           operation of the internal control structure, which could
                                           adversely affect the contractor's ability to record,
                                           process, summarize, and report compensation in a
                                           manner that is consistent with applicable government
                                           contract laws and regulations.

                                           Recommendation: We recommended that the Action
                                           Official resolve the issue.




                                           30
                                                                                     09-X-0196


  Action
  Official        DCAA Audit Report       Summary of Findings and Recommendations
OAM/FAOSC    OIG Report No. 08-1-0114   DCAA questioned $2,082,837 in proposed indirect
             Issued: 03/24/2008         costs for FY 2004, of which EPA’s share is $197,869.

                                        Recommendation: We recommended that the Action
                                        Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 08-1-0129   DCAA questioned the proposed carry forward
             Issued: 04/10/2008         FY 2005 amounts of $377,330, of which EPA’s share
                                        is $45,280.

                                        Recommendation: We recommended that the Action
                                        Official resolve the questioned costs.

OAM/FAOSC    OIG Report No. 08-1-0131   DCAA questioned $15,966,631 in claimed direct costs
             Issued: 04/15/2008         and proposed indirect costs for FY 2001, of which
                                        EPA’s share equals $44,648.

                                        Recommendation: We recommended that the Action
                                        Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 08-1-0130   DCAA questioned $7,177,256 in claimed direct costs
             Issued: 04/15/2008         and proposed indirect costs for FY 1999, of which
                                        EPA’s share equals $57,369.

                                        Recommendation: We recommended that the Action
                                        Official resolve the questioned costs.
OAM/FAOSC    OIG Report No. 08-4-0157   DCAA reported that the control environment and the
             Issued: 05/20/2008         overall accounting system and related internal control
                                        policies and procedures were inadequate in part in
                                        2006. DCAA noted one significant deficiency in the
                                        design or operation of the internal control structure
                                        that could adversely affect the organization's ability to
                                        record, process, summarize, and report costs in a
                                        manner consistent with applicable government
                                        contract laws and regulations.

                                        Recommendation: We recommended that the Action
                                        Official resolve the issue.
OAM/FAOSC    OIG Report No. 08-4-0207   DCAA reported that certain contractor labor practices
             Issued: 07/24/2008         require corrective action to improve the reliability of
                                        the contractor's labor accounting system.

                                        Recommendation: We recommended that the Action
                                        Official resolve the issue.
OAM/FAOSC    OIG Report No. 08-4-0208   DCAA reported that during the period of January 1,
             Issued: 07/24/2008         2006, through December 31, 2006, the contractor was
                                        in noncompliance with Cost Accounting Standard 409
                                        Depreciation of Tangible Capital Assets and Federal
                                        Acquisition Regulation Part 31.

                                        Recommendation: We recommended that the Action
                                        Official resolve the issue.




                                        31
                                                                                        09-X-0196


   Action
   Official           DCAA Audit Report        Summary of Findings and Recommendations
 OAM/FAOSC       OIG Report No. 08-4-0259   DCAA reported that certain contractor labor practices
                 Issued: 09/12/2008         require corrective action to improve the reliability of
                                            the contractor's labor accounting system.

                                            Recommendation: We recommended that the Action
                                            Official resolve the issue.
 OAM/FAOSC       OIG Report No. 08-4-0308   DCAA reported that the information technology
                 Issued: 09/30/2008         system general internal controls of the contractor were
                                            inadequate in part. The DCAA examination noted
                                            certain significant deficiencies in the design or
                                            operation of the internal control structure. In their
                                            judgment, these deficiencies could adversely affect
                                            the organization's ability to record, process,
                                            summarize, and report direct and indirect costs in a
                                            manner that is consistent with applicable government
                                            contract laws and regulations.

                                            Recommendation: We recommended that the Action
                                            Official resolve the issue.
 OAM/FAOSC       OIG Report No. 09-4-0018   DCAA reported that the contractor was in
                 Issued: 11/05/2008         noncompliance with Cost Accounting Standard 409,
                                            Depreciation of Tangible Capital Assets. DCAA was
                                            not able to obtain the date of the initial failure to
                                            comply with the standard. As of the date of the
                                            report, the condition causing the noncompliance had
                                            not been corrected.

                                            Recommendation: We recommended that the Action
                                            Official resolve the issue.
 OAM/FAOSC       OIG Report No. 09-1-0034   DCAA questioned proposed indirect costs and rates
                 Issued: 11/24/2008         for FY 2006. EPA’s share of the questioned costs is
                                            $710,170.

                                            Recommendation: We recommended that the Action
                                            Official resolve the questioned costs.
Source: OIG analysis




                                            32
                                                                                 09-X-0196


                                                                             Appendix A

                                   Distribution

Acting Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Assistant Administrator for Solid Waste and Emergency Response
Acting Assistant Administrator for Water
Acting Regional Administrators, Regions 1-10
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Director, Office of Brownfields and Land Revitalization
Acting Director, Office of Acquisition Management
Acting Director, Office of Underground Storage Tanks
Director, Office of Grants and Debarment
Director, Grants and Interagency Agreements Management Division
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinators, Regions 1-10
Acting Inspector General




                                            33
